HHS/OIG, Audit -"Review to Increase the Number of Non-Custodial Parents Providing Medical Support To Their Children and Reduce Medicaid Costs in North Carolina,"(A-04-02-00013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review to Increase the Number of Non-Custodial Parents Providing Medical Support To Their Children and Reduce Medicaid
Costs in North Carolina," (A-04-02-00013)
June 20, 2003
Complete
Text of Report is available in PDF format (660 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report  points out that North Carolina has an opportunity to increase the number of non-custodial parents
(NCP) providing medical support for their children and reduce Medicaid costs.  We found that in 75 of 100 cases reviewed,
NCPs were unable to fully meet their obligation to provide health insurance for their children.  This occurred because
either their employers did not offer health insurance or available health insurance was not reasonable in cost.  However,
we determine that 35 of the 75 NCPs could contribute towards part of all of the Medicaid costs the State paid on behalf
of their children from June 2001 through May 2002.  During this 1-year period, we estimate that $17.4 million could
have been collected from the NCPs of 30,987 children to partially offset the Medicaid costs incurred by the State and Federal
Governments to provide health care to these children.  North Carolina currently has no mechanism for NCPs to pay towards
their children's Medicaid costs.  Also, existing Federal legislation does not require NCPs to provide medical support
if the employer does not offer health insurance or the insurance is too costly.  We recommended that North Carolina
modify existing State child support laws to allow implementation of policies and procedures that require NCPs to contribute
to their children's Medicaid costs.